                                                                         EMPLOYMENT AND
                                                                         TRAINING ADMINISTRATION
U.S. Department of Labor
                           Office of Inspector General—Office of Audit




                                                                         The New Mexico Department of Labor
                                                                         Improperly Charged Unemployment
                                                                         Insurance Program Costs to Its Workforce
                                                                         Investment Act Rapid Response Program




                                                                                            Date Issued: September 30, 2005
                                                                                            Report Number: 06-05-005-03-390
U.S. Department of Labor
Office of Inspector General                     September 2005
Office of Audit
                                                Review of New Mexico UI
BRIEFLY…                                        Program Costs Charged to Its
Highlights of Report Number: 06-05-005-03-      WIA Rapid Response
390, to the Assistant Secretary for             Program
Employment and Training regarding the
Workforce Investment Act (WIA) funds            WHAT OIG FOUND
granted to the State of New Mexico.
                                                The OIG concluded that the NMDOL
WHY READ THE REPORT                             improperly charged approximately $1.65
                                                million of its UI automation project costs, UI
The Office of Inspector General (OIG) reports   personnel compensation costs, and other UI
on audit conclusions regarding New Mexico       program costs to grant funds reserved for
Department of Labor (NMDOL)                     WIA Rapid Response activities.
Unemployment Insurance (UI) Program Costs
charged to its WIA Rapid Response Program.      WHAT OIG RECOMMENDED

                                                We recommended that the Assistant Secretary for
                                                Employment and Training: (1) disallow and recover
                                                from the NMDOL, from non-Federal funds, the
                                                $1,648,018 of WIA Rapid Response funds that were
                                                improperly used to help fund deficits in the NMDOL’s
                                                UI automation project and to pay for UI staff
WHY OIG DID THE AUDIT                           compensation and other UI expenses; and (2)
                                                require the NMDOL to establish controls and
The Employment and Training Administration      procedures to ensure that costs incurred for one
requested OIG’s assistance in reviewing the     program are not shifted to other programs either
allowability of UI automation project costs     through journal voucher adjustments or direct
charged to grant funds reserved for WIA         charges. Journal vouchers should be documented
Rapid Response activities. In response we       and properly approved.
conducted a performance audit of the issue.
                                                The State of New Mexico’s response stated that on
                                                January 22, 2004, the New Mexico Office of
                                                Workforce Training and Development was
                                                designated as the State agency responsible for
                                                administration of WIA funds and became
                                                responsible for repayment of any disallowed WIA
                                                costs. Also, the State disagreed with our audit
                                                conclusions on the basis that a WIA Rapid
                                                Response event is a jointly conducted activity with
      READ THE FULL REPORT                      “Access to unemployment insurance” being a shared
                                                cost objective that may properly be allocated to WIA
To view the report, including the               Rapid Response funds.
scope, methodology, and full agency
response, go to:                                We considered the State’s response. However, we
http://www.oig.dol.gov/public/reports/          reject the State’s arguments and recommend that
oa/2004/06-05-005-03-390.pdf                    ETA disallow the amount of WIA costs that we
                                                questioned.
                                                                  The NMDOL Improperly Charged UI Program
                                                                    Costs to Its WIA Rapid Response Program




Table of Contents
                                                                                                                   PAGE

EXECUTIVE SUMMARY ........................................................................................... 3

ASSISTANT INSPECTOR GENERAL’s REPORT ................................................... 5

    Finding: The NMDOL improperly charged approximately
    $1.65 million of its UI automation project costs, UI personnel
    compensation costs, and other UI program costs to grant funds
    reserved for WIA Rapid Response activities.................................................... 5

EXHIBIT................................................................................................................... 17

    A. Schedule of Questioned Costs – Rapid Response Transactions........... 19

APPENDICES.......................................................................................................... 18

    A.   Background ................................................................................................. 23
    B.   Objective, Scope, Methodology, and Criteria ........................................... 25
    C.   Acronyms and Abbreviations .................................................................... 27
    D.   Agency Response to Draft Report............................................................. 29




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program




Executive Summary
We conducted a performance audit to determine if the New Mexico Department of
Labor (NMDOL) improperly used Workforce Investment Act (WIA) Rapid Response
program funds to help finance the NMDOL’s Unemployment Insurance (UI) Claims
System Reengineering Project.

Results

We concluded that the NMDOL improperly charged to its WIA Rapid Response
program $1,648,018 of UI program costs as follows:

   •   $748,657 of UI personnel compensation costs and other UI program
       expenses (finding 1.A), and

   • $899,361 of its UI claims system reengineering project costs (finding 1.B).
   .
These costs are questioned as unallowable costs to the NMDOL’s WIA Rapid
Response program because the costs:

   •   were charged to the WIA Rapid Response program to use available funds for
       rapid response, to overcome a budget deficit in the NMDOL’s UI claims
       system reengineering project; and

   •   were inallocable, unnecessary and unreasonable costs to the WIA Rapid
       Response program, because they provided no benefit to the Rapid Response
       program.


Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. disallow and recover from the NMDOL, from non-Federal funds, the $1,648,018
   of WIA Rapid Response funds that were improperly used to help fund deficits in
   the NMDOL’s UI claims system re-engineering project and to pay for UI
   personnel compensation costs and other UI expenses; and

2. require the NMDOL to establish controls and procedures to ensure that costs
   incurred for one program are not shifted to other programs either through journal
   voucher adjustments or direct charges. Journal vouchers should be documented
   and properly approved.


U.S. Department of Labor—Office of Inspector General                                  3
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program


State Response

The response, submitted jointly by the New Mexico Office of Workforce Training and
Development and the New Mexico Department of Labor, states that our
recommendation for disallowance of $1,648,018 is based on an invalid premise that
prorata costs for unemployment insurance claims from WIA rapid response
participants could not be charged to the WIA program under 20 CFR 665.310(a) of
the WIA Regulations. Also, the response notes that on January 22, 2004, the New
Mexico Office of Workforce Training and Development was designated as the State
agency responsible for administration of WIA funds and thereby became responsible
for repayment of any disallowed WIA costs.

The State contends that “Access to unemployment insurance” is a shared cost
objective under 20 CFR 665.310(a)(5); and that in accordance with the advice of
NMDOL’s former legal counsel was a valid basis for allocating unemployment
insurance benefits system costs to WIA. Additionally, the response states that we
did not interview State staff members who engaged in communications with USDOL
Regional Office staff that WIA Rapid Response funds would be used as one of the
funding sources for the UI automation project. Further, the response states that our
conclusion that Rapid Response funds were used to cover a deficit in the automation
project is unsupported because Reed Act funds were available for appropriation.

The State also responded that our draft report failed to acknowledge that State
policy makers requested a Federal review in July 2004 when presented with staff
concerns about the automation project. Finally, the response indicates that, if the
expenditures are not allowed, the State would use its available Reed Act
appropriations to cover the questionable costs.

OIG Conclusion

Our report is focused on the NMDOL because it was the agency that administered
the activities we examined. Although the State has since moved administration of
WIA funded activities to the New Mexico Office of Workforce Training and
Development, ETA will determine the amount of disallowance and collection
procedures.

We disagree with the State’s characterization of our premise for recommending
disallowance of the WIA Rapid Response funds used for the UI automation project.
Although WIA rules allow Rapid Response funds to be used for providing designated
dislocated workers access to UI, it is inappropriate to use WIA Rapid Response
funds to supplement funding for UI administration, such as the UI automation
project, that is provided by a separate Federal appropriation. Accordingly, our
finding and recommendations remain unchanged. The entire State response is
provided in Appendix D.


4                                  U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 06-05-005-03-390
                                                   The NMDOL Improperly Charged UI Program
                                                     Costs to Its WIA Rapid Response Program




U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC. 20210



                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training


At the Employment and Training Administration’s (ETA) request, the Office of
Inspector General (OIG) performed a performance audit to determine if the New
Mexico Department of Labor (NMDOL) improperly used Workforce Investment Act
(WIA) Rapid Response program funds to help finance its UI claims system
reengineering project.

We concluded that the NMDOL improperly charged $1,648,018 of UI program costs
to grant funds reserved for WIA Rapid Response activities to fund a budget deficit in
the agency’s UI claims system reengineering project.

We conducted our performance audit in accordance with Government Auditing
Standards. Our audit scope, methodology, and criteria are detailed in Appendix B.


Objective:     Did the NMDOL improperly charge UI system reengineering
               project1 costs to its WIA Rapid Response program?

Finding:       The NMDOL improperly charged approximately $1.65 million of its
               UI automation project costs, UI personnel compensation costs,
               and other UI program costs to grant funds reserved for WIA Rapid
               Response activities.

The NMDOL incurred a deficit of funds while developing a new UI system primarily
under contract with TATA Consultancy Services.2 As shown in documents prepared
internally by NMDOL, $1.5 million of available funds were identified under the WIA
Rapid Response program to complete the UI automation project.

A NMDOL-prepared document titled “WIA Rapid Response History” provides:

1
 Hereafter referred to as “UI automation project”
2
 TATA Consultancy Services, also known as TCS, was the NMDOL’s primary contractor for its UI
system re-engineering project.

U.S. Department of Labor—Office of Inspector General                                           5
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program


         April 2002
            • Additional WIA Rapid Response funds were identified and
                were to be obligated prior to June 20, 2002, or funds were
                to revert to USDOL.

            •   NMDOL Administration instructed staff to pursue options to
                obligate funds and to justify obligations and expenditures
                as specified under UDDOL guidelines and statute for WIA
                rapid response. [Emphasis added.]

According to an internal NMDOL email:

         May 22, 2002
         [NMDOL official] confirmed the availability of the $1.5M rapid
         response money as proposed on the allocated costs spreadsheet.
         Please coordinate with legal and [Financial Management Bureau]
         for the necessary actions on contract amendments and budget
         transfer.

To use WIA funds available for rapid response and to cover the deficit3 created by
contract amendment eight with TATA Consultancy Services, NMDOL improperly:

     •   transferred $748,657 of UI program costs -- initially paid from and charged to
         the UI program -- to the WIA Rapid Response program via journal voucher
         adjustments; and

     •   charged $899,361 of UI automation project costs directly to the WIA Rapid
         Response program that were initially approved and coded for payment as UI
         automation project costs.

A.        The NMDOL improperly transferred to the Rapid Response program
          $748,657 in UI program personnel compensation and UI program
          costs.

The NMDOL reclassified $748,657 of UI personnel compensation and other
expenses as UI automation project costs and improperly transferred this amount to
the WIA Rapid Response program via four journal voucher adjustments. The
justification the agency gave for the transfer was that its UI division incurs costs for
processing claims for Rapid Response participants.

In April 2002, the NMDOL’s legal counsel recommended using the following
procedures to justify financing UI costs with WIA Rapid Response funds:

3
 The $1,648,018 actually mischarged exceeded the $1.51 million deficit created by amendment
eight.

6                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-05-005-03-390
                                                  The NMDOL Improperly Charged UI Program
                                                    Costs to Its WIA Rapid Response Program



    •    Calculate the total number of UI claims processed.
    •    Calculate the number of UI claims processed for rapid response claimants.
    •    Arrive at a percentage of rapid response UI claims processed to total UI
         claims processed.
    •    Apply the percentage to all expenditures related to claims.

To justify charging UI costs to the WIA Rapid Response program, the NMDOL
identified employers who had layoffs of more than 50 employees and determined the
number of UI claimants from these layoffs during the period July 2001 to April 2002.
Such claims were classified as “rapid response” claims.

This justification for charging UI costs to the WIA Rapid Response program is flawed
since processing UI claims for Rapid Response participants is no different than the
procedures used when handling all other claimants. Additionally, even if UI claims
were processed during a Rapid Response event, allocating UI claims processing
staff costs to the Rapid Response program would not meet the criteria for a Rapid
Response activity. The principles in OMB Circular A-87 require consistent
application of common costs based on the proportionate benefit to the program
being charged, whereas costs for processing UI claims do not benefit the Rapid
Response program.

The NMDOL used its flawed methodology to transfer to its WIA Rapid Response
program some UI personnel compensation and other UI program costs. The
NMDOL determined the rate of its defined “rapid response” claims to be 6.6 percent
for the first two adjustments, 12.2 percent for the second adjustment, and 5.29
percent for the last adjustment. The journal voucher adjustments were as follows:

                                                                          Amount Charged
               Adjustment                                    Allocation    Against Rapid
Transaction        Date              Description                Rate        Response
JV-729        6/30/2002     Personal Services & Benefits /                          345,320
                            Software Lease / Maintenance       6.6%

JV-765        6/30/2002     UIC Software Maintenance/IVR       6.6%                  32,556
                            Annual Maintenance / ES
                            Central Processing Unit
JV-695        11/30/2002    Transfer of UI Administration      12.2%                271,596
                            and Project expenditures

JV-069        2/28/2003     UI Administrative and Project      5.29%                 99,185
                            expenditures


Total                                                                              $748,657




U.S. Department of Labor—Office of Inspector General                                     7
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program


The NMDOL transferred these UI costs to WIA Rapid Response based on the
availability of funds for rapid response (see prior reference to May 22, 2002 email)
notwithstanding staff concerns evidenced by the following NMDOL internal e-mails:

      • June 11, 2002
      If this issue of continued funding for the [UI] claims re-engineering
      project is not resolved, then this project’s successful completion
      will be jeopardized. I would rather we take a hit on an audit [that]
      can be fixed later rather than to face the wrath of the USDOL, the
      State Legislature and the public when we implement a system
      that is partially completed and does not do what is intended. . . .
      We need a fix and soon!!

      • February 15, 2003
      … the rapid [response] allocation was intended to offset the
      deficit [in UI automation project] . . . I don’t mean to be critical but
      this [UI automation] project is running over budget and needs to
      be controlled. [Emphasis added.]

      • April 10, 2003
      I have received information from the regional [ETA] office
      regarding your query on transferring PY00 expenses into Rapid
      Response. Basically, how are you going to document the time?
      You would need time sheets and affidavits from the individuals
      involved, otherwise I believe the feds would consider it a
      shifting of expenditures for budget purposes, not a true
      expense. . . . [Emphasis added.]

      • April 11, 2003
      We had come up with a method of utilizing the number of claims
      processed that were rapid response related. Based upon that
      number, the cost of processing initial claims is being prorated. . . .

      • April 15, 2003
      [We] had a conversation with [USDOL official] this morning
      regarding the UI transfer of charges to Rapid Response.

      Are the charges from PY00 that you want to transfer staff
      charges? If so, [we] feel it is too late to do this – it would leave
      us vulnerable in an audit situation. [She] feels it would be
      viewed as a way for UI to charge their legitimate program activity
      to another program – Rapid Response. . . . [Emphasis added.]

WIA Final Rules, Title 20 Code of Federal Regulations (20 CFR), Subpart
665.300(a)) defines the purpose of Rapid Response as,

8                                   U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-05-005-03-390
                                                   The NMDOL Improperly Charged UI Program
                                                     Costs to Its WIA Rapid Response Program


        …activities necessary to plan and deliver services to enable
       dislocated workers to transition to new employment as quickly as
       possible, following either a permanent closure or mass layoff, or a
       natural or other disaster resulting in a mass job dislocation.

The purpose of UI is to provide eligible claimants benefits that allow them to
continue to acquire the necessities of life, such as food, shelter, and clothing. The
objectives of the UI and Rapid Response programs are different; they each have
separate funding sources, and the success of one program is not dependent upon
the results of the other. Incurring costs related to UI claims is not necessary to fulfill
the purpose of Rapid Response; consequently, funds reserved for Rapid Response
should not be used for UI program activities.

Therefore, we question the reasonableness and necessity of charging $748,657
of UI staff compensation and other UI expenses to Rapid Response.

B.     The NMDOL improperly charged directly to the WIA Rapid Response
       program $899,361 of UI automation project costs that were initially
       approved and coded for payment as UI automation project costs.

In addition to transferring UI expenses via journal vouchers, NMDOL directly
charged4 $899,361 of their UI automation project’s costs to the WIA Rapid
Response program. The following internal e-mail documents (also cited In finding
1A) show the NMDOL’s intent to use WIA Rapid Response funds to relieve the UI
automation project deficit regardless of the potential for future disallowance:

       • June 11, 2002
       If this issue of continued funding for the [UI] claims re-engineering
       project is not resolved, then this project’s successful completion
       will be jeopardized. I would rather we take a hit on an audit
       [that] can be fixed later rather than to face the wrath of the
       USDOL, the State Legislature and the public when we implement
       a system that is partially completed and does not do what is
       intended. . . . We need a fix and soon!! [Emphasis added.]

       • February 15, 2003
       … the rapid [response] allocation was intended to offset the
       deficit [in UI automation project] . . . I don’t mean to be critical but
       this [UI automation] project is running over budget and needs to be
       controlled. [Emphasis added.]




4
 The NMDOL charged approximately 77 percent of one invoice, 73 percent of another invoice, and
100 percent of three invoices.

U.S. Department of Labor—Office of Inspector General                                             9
Report Number: 06-05-005-03-390
        The NMDOL Improperly Charged UI Program
        Costs to Its WIA Rapid Response Program


        The NMDOL had conceived numerous methods for allocating the UI automation
        project costs to Rapid Response. However the method they decided to use involved
        the eighth amendment to TCS’s contract, which increased the total project cost by
        $1.51 million.

        NMDOL decided that 6.6 percent5 of the total system cost should be borne by the
        Rapid Response program. As a result, NMDOL had planned to charge $1,115,095
        of amendment eight to Rapid Response. However, this did not happen since only
        $899,361 was actually allocated to the program as follows:

                   Invoice
                     Date                                                                       Amount Charged
                  Payment                                           Payment       Allocation     Against Rapid
Transaction          Date                 Description               Amount           Rate         Response
FO-34417         10/04/2002    Development of UI Claims               $90,000      76.94%                $69,246
                 01/22/2003    Management System Video-
                               based online training.
FO-34519         09/04/2002    Testing of various tasks /              528,580    73.4913%               388,460
                 01/27/2003    Transition to the New System
                               Strategy / Maintenance plan.
FO-40522         01/28/2003    Final Data Migration / Acceptance       142,405      100%                 142,405
                 07/30/2003    of System Documentation
FO-40523         11/02/2002    Performance, Stress, and all Non-       142,500      100%                 142,500
                 07/30/2003    Functional Testing
FO-40764         03/28/2003    Transition to the new system            156,750      100%                 156,750
                 08/08/2003

Total                                                                                                   $899,361

        We question the allowability of charging $899,361 of UI automation projects costs to
        the WIA Rapid Response program for the following reasons:

             •   The UI automation project was not designed to benefit Rapid Response.

             •   Costs were allocated inconsistently to Rapid Response.

                 1) The UI automation project was not designed to benefit Rapid
                    Response.

        Although NMDOL’s amendment eight to the UI automation project contract added a
        system component specifically designated for mass layoffs (when UI claimants
        would be eligible for rapid response activities), none of the documentation supports
        the functionality of this component as being beneficial for Rapid Response. It
        appears that the component was simply tagged as mass layoff by NMDOL to justify


        5
          This percentage is based on the NMDOL’s definition and calculation of UI “rapid response”
        claimants.

        10                                        U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program


their use of Rapid Response funds. An internal NMDOL memorandum that was
prepared in the process of seeking approval for the amendment described the
objective to enhance UI claims processing as:

       Development of supplemental requirements, missing functionality,
       address process improvements and include computer based video
       training and online help. This work is required to: ensure that the UI
       Claims Processing System is functionally complete; includes
       integration of external/internal partners; provides for efficient
       operation of processes and staff; addresses recent legislative
       mandates such as Temporary Emergency Unemployment
       Compensation; and enhances the system for exports to other states.

However, documents used to support payments applied to the Rapid Response
account described the components for the UI automation project as follows:

       Development of UI Claims Management System Video-based online
       training; Testing of various tasks/Transition to the New System
       Strategy/Maintenance plan; Final Data Migration/Acceptance of
       System Documentation; Performance, Stress, and all Non-Functional
       Testing; Transition to the new system.

In addition, development plans provided by the NMDOL showed the Mass Layoff
component’s capability as being limited to tracking Rapid Response participants,
which is no different than the system’s capability to track all other UI claimants.

Based on the descriptions of the internal memorandum, supporting payment
documents, and development plan, the Mass Layoff component provides no benefits
to the Rapid Response program. None of the documents revealed any features in
the new system that would enable NMDOL to monitor the performance of the Rapid
Response program or carry out any other functions that would make the program
more effective or efficient. Therefore, we concluded that even with this new system
in place, NMDOL will continue to administer the program and incur its normal
expense as it has in the past.


       2) Although the UI automation project costs are not allowable charges
          to the NMDOL’s WIA Rapid Response program, the NMDOL was not
          consistent in how it allocated such costs to WIA.

NMDOL used a variety of rates to charge their UI automation project costs to WIA
Rapid Response. The agency’s documentation shows its initial intent was to charge
to WIA Rapid Response 73.85 percent (or $1,115,095) of the $1.51 million cost for
the UI automation contract amendment eight. However, without any explanation,
only $899,361 was charged to Rapid Response. Two invoices were allocated


U.S. Department of Labor—Office of Inspector General                                  11
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program


among various programs including WIA Rapid Response; while three invoices were
charged 100 percent to WIA Rapid Response (see chart below).

                     CONTRACT AMENDMENT EIGHT ALLOCATION
                         UI            Rapid      Internet    Reed         Total
                    Reengineering    Response      Grant       Act

         Original        $139,905    $1,115,095    $10,000   $245,000   $1,510,000
         Plan              9.27%        73.85%       .66%     16.23%         100%

         Payment                $0     $69,246     $17,379     $3,375      $90,000
         F034417               0%      76.94%      19.31%      3.75%         100%
         Payment           $48,999    $388,460     $86,325     $4,796     $528,580
         F034519            9.27%      73.49%      16.33%       .91%         100%
         Payment                $0    $142,405          $0         $0     $142,405
         F040522               0%        100%          0%         0%         100%
         Payment                $0    $142,500          $0         $0     $142,500
         F040523               0%        100%          0%         0%         100%
         Payment                $0    $156,750          $0         $0     $156,750
         F040764               0%        100%          0%         0%         100%
         Total             $48,999    $899,361    $103,704     $8,171   $1,060,235
                            4.62%      84.83%       9.78%       .77%         100%


Initially, these five invoices were approved and coded for payment as UI automation
project costs. Before the invoices were paid, the payment coding was changed: two
invoices’ costs were allocated among various programs including WIA Rapid
Response; three invoices’ costs were charged 100 percent to WIA Rapid Response.
These coding changes resulted in $899,361 of UI automation project costs being
shifted to the WIA Rapid Response program. Therefore, these costs are
questionable WIA Rapid Response costs.

Even though the UI automation project costs are not considered allowable expenses
for the Rapid Response program, the inconsistency of NMDOL’s methodology for
allocating costs among the various funding sources violated OMB Circular A-87,
Attachment A, Paragraph C.1.e, that requires allowable costs to:

      Be consistent with policies, regulations, and procedures that apply
      uniformly to both Federal awards and other activities of the
      governmental unit

In charging approximately $1.65 million of UI program costs to its WIA Rapid
Response program, the NMDOL violated the following provisions of Office of
Management and Budget (OMB) Circular No. A-87, Attachment A.

      A cost is allocable to a particular cost objective if the goods or
      services involved are chargeable or assignable to such cost




12                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program

        objective in accordance with relative benefits received.
        (paragraph C.3.a)

        Any cost allocable to a particular Federal award or cost objective
        under the principles provided for in this Circular may not be
        charged to other Federal awards to overcome fund deficiencies
        . . . . (paragraph C.3.c)

        To be allowable under Federal awards, costs must be adequately
        documented. (paragraph C.1.j)

         [To be allowable a costs must be] Necessary and reasonable for
        proper and efficient performance and administration of Federal
        awards. (paragraph C.1.a)

We question the allowability of $1,648,018 of UI automation project costs (see
Exhibit A) and other expenses charged to the WIA Rapid Response program
because:

    •   The NMDOL used WIA Rapid Response funds to cover their UI automation
        program deficit.

    •   The WIA Rapid Response program received no benefit from the UI
        automation project.

    •   UI costs were not necessary and reasonable for the effective and efficient
        performance of the WIA Rapid Response program.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

1. disallow and recover from the NMDOL, from non-Federal funds, the $1,648,018
   of WIA Rapid Response funds that were improperly used to help fund deficits in
   the NMDOL’s UI automation project and to pay for UI staff compensation and
   other UI expenses; and

2. require the NMDOL to establish controls and procedures to ensure that costs
   incurred for one program are not shifted to other programs either through journal
   voucher adjustments or direct charges. Journal vouchers should be documented
   and properly approved.




U.S. Department of Labor—Office of Inspector General                                 13
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program


NMDOL's Response

The response, submitted jointly by the New Mexico Office of Workforce Training and
Development and the New Mexico Department of Labor, states that our
recommendation for disallowance of $1,648,018 is based on an invalid premise that
pro-rata costs for unemployment insurance claims from WIA rapid response
participants could not be charged to the WIA program under 20 CFR 665.310(a) of
the WIA Regulations.

The State contends that “access to unemployment insurance” is a shared cost
objective under 20 CFR 665.310(a)(5), and that, in accordance with the advice of
NMDOL’s former legal counsel there was a valid basis for allocating unemployment
insurance benefits system costs to WIA. The response also states that we did not
interview State staff members who engaged in communications with USDOL
Regional Office staff regarding the use of WIA Rapid Response funds as one of the
funding sources for the UI automation project.

Further, the response states that our conclusion that Rapid Response funds were
used to cover a deficit in the automation project is unsupported. According to the
response, several million dollars of Reed Act funds were available for appropriation
for the automation project; but Rapid Response funds were used because the
State’s legal advisor and financial management staff thought it was a legal and
proper source of funds.

The State further responded that the use of WIA Rapid Response as one of the
funding sources for the UI automation project was discussed several times with ETA
Regional Office staff, that Federal staff stated the cost allocation methodology was
good, and that the draft report failed to acknowledge that State policy makers
requested a federal review in July 2004 when presented with staff concerns about
the automation project. Finally, the response indicates that, if the expenditures are
not allowed, the State would use its available Reed Act appropriations to cover the
questionable costs.

OIG Conclusion

We disagree with the State characterization of our premise for recommending
disallowance of the WIA Rapid Response funds used for the UI automation project.
WIA rules allow Rapid Response funds to be used for providing designated
dislocated workers access to UI, but it is inappropriate to use WIA Rapid Response
funds to supplement UI administration funding, such as the UI automation project,
that is provided by a separate Federal appropriation.

Regarding the State’s assertion that the use of WIA Rapid Response funds for the
UI automation project was discussed several times with ETA Regional Office staff,


14                                  U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program

we do not believe that such discussions relieve the State of Federal requirements
regarding the allowability of WIA costs. Also, although we may not have interviewed
all State employees who discussed the UI automation project with the ETA Regional
Office, we spoke with a former State employee involved in conversations with ETA
staff. The former employee said there was nothing in writing to substantiate the
claim that ETA endorsed the State’s methodology. Also, we spoke with the ETA
representative and she denied the claim made by the State staff.

The State also contends that our conclusion that Rapid Response funds were used
to cover a deficit in the UI automation project is unsupported. The State responded
that funding required for the UI automation project was met partially with the use of
WIA Rapid Response, and, according to the response, could have been met
alternatively with use of State appropriated Reed Act funds.

In an internal e-mail dated February 15, 2003, State staff stated, “. . . Your current
Reed Act budget by itself cannot cover this expenditure. I am working on the 4th
Quarter Rapid Response allocation which can be used for this purpose
. . .” The e-mail goes on to further say, “Spending this additional $200,000 is based
upon the bet that the department will be appropriated FY 04 Reed Act dollars for this
purpose because the rapid [response] allocation was intended to offset the deficit.”

We believe the documents cited in the finding referencing a concern about a
potential funding deficit support our conclusions, which remain unchanged from our
draft report. The State response has been fully considered. However, we reject the
State’s arguments and have retained the recommendation unchanged from the draft
report. ETA will determine the amount of disallowance and debt collection
procedures.




Elliot P. Lewis
April 8, 2005




U.S. Department of Labor—Office of Inspector General                                 15
Report Number: 06-05-005-03-390
The NMDOL Improperly Charged UI Program
Costs to Its WIA Rapid Response Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program




Exhibit




U.S. Department of Labor—Office of Inspector General                                 17
Report Number: 06-05-005-03-390
                            The NMDOL Improperly Charged UI Program
                              Costs to Its WIA Rapid Response Program




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                 U.S. Department of Labor—Office of Inspector General
                                        Report Number: 06-05-005-03-390
                                                              The NMDOL Improperly Charged UI Program
                                                                Costs to Its WIA Rapid Response Program

                                                                                            EXHIBIT A
                                                                                           Page 1 of 1
                        SCHEDULE OF QUESTIONED COSTS
                          Rapid Response Transactions
                                                                                           QUESTIONED
                                                                                             COSTS
                 General                                                                   Charged Against
                 Ledger                                            Payment    Allocation     WIA Rapid
Transaction       Date                 Description                 Amount        Rate        Response
FO-34417       01/22/2003    Development of UI Claims               $90,000    76.94%               $69,246
                             Management System Video-
                             based online training.
FO-34519       01/27/2003    Testing of various tasks /             528,580   73.4913%               388,460
                             Transition to the New System
                             Strategy / Maintenance plan.
FO-40522       07/30/2003    Final Data Migration / Acceptance      142,405     100%                 142,405
                             of System Documentation

FO-40523       07/30/2003    Performance, Stress, and all Non-      142,500     100%                 142,500
                             Functional Testing

FO-40764       08/08/2003    Transition to the new system           156,750     100%                 156,750


JV-729         06/30/2002    Personal Services & Benefits /                      6.6%                345,320
                             Software Lease / Maintenance                      (Note 1)

JV-765         06/30/2002    UIC Software Maintenance/IVR                        6.6%                 32,556
                             Annual Maintenance / ES Central                   (Note 1)
                             Processing Unit
JV-695         11/30/2002    Transfer of UI Administration and                  12.2%                271,596
                             Project expenditures                              (Note 2)

JV-069         02/28/2003    UI Administrative and Project                      5.29%                 99,185
                             expenditures                                      (Note 3)


Total                                                                                             $1,648,018


             6.6% = 3,086 Rapid Response participants / 47,064 total unemployment population.
Note 1       For the period of July 2001 to April 2002 (10 months)
                                   Calculation does not account for June 2002 statistics

             12.2% = 2,090 Rapid Response participants / 17,101 total unemployment population.
Note 2       For the period of July 2002 to September 2002 (3 months)
             Calculation does not account for June 2002 statistics

             5.29% = 964 Rapid Response participants / 18,219 total unemployment population.
Note 3       For the period of October 2002 to December 2002 (3 months)




        U.S. Department of Labor—Office of Inspector General                                        19
        Report Number: 06-05-005-03-390
                            The NMDOL Improperly Charged UI Program
                              Costs to Its WIA Rapid Response Program




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                 U.S. Department of Labor—Office of Inspector General
                                        Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program




Appendices




U.S. Department of Labor—Office of Inspector General                                 21
Report Number: 06-05-005-03-390
                            The NMDOL Improperly Charged UI Program
                              Costs to Its WIA Rapid Response Program




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                 U.S. Department of Labor—Office of Inspector General
                                        Report Number: 06-05-005-03-390
                                                 The NMDOL Improperly Charged UI Program
                                                   Costs to Its WIA Rapid Response Program

                                                                                Appendix A


BACKGROUND

The Employment and Training Administration (ETA) requested the Office of Inspector
General (OIG) to determine if the New Mexico Department of Labor (NMDOL)
improperly used WIA Rapid Response funds to help finance its UI Claims System
Reengineering Project.

WIA Rapid Response Program

Each program year, ETA awards Workforce Investment Act (WIA) grants to each
State that include funds to finance Rapid Response programs that are intended to
provide:

         . . . activities necessary to plan and deliver services to enable
         dislocated workers to transition to new employment as quickly as
         possible, following either a permanent closure or mass layoff, or a
         natural or other disaster resulting in a mass job dislocation.

States can use its DOL-funded Rapid Response program to take a proactive
approach in minimizing the time dislocated workers are out of work.

UI Claims System Reengineering Project

The NMDOL’s 30-year old UI claims system limited the functionality and efficiency of
its unemployment insurance (UI) operations. Consequently, the USDOL, ETA
awarded the NMDOL a UI infrastructure grant of $7,184,253 to reengineer the
agency’s UI claims system.

As the UI automation project progressed, the NMDOL implemented several changes
that increased the total project cost to an estimated $14.5 million6 (as of March
2004) and delayed the project completion date from December 31, 2001, to May 15,
2004.

The NMDOL had a budget deficit for the UI automation project and used WIA Rapid
Response funds to fund the deficit. The methodology the NMDOL used to justify
allocating UI costs to the Rapid Response program was based on a legal opinion
from the agency’s legal counsel. The legal counsel recommended the following:




6
 Per Agreed Upon Procedures Report Issued by Henderson, Black and Company, Certified Public
Accountants and Management Consultants, August 5, 2004.

U.S. Department of Labor—Office of Inspector General                                          23
Report Number: 06-05-005-03-390
                                                The NMDOL Improperly Charged UI Program
                                                  Costs to Its WIA Rapid Response Program

     •   For expenditures directly related or beneficial to the program, allocate 100
         percent of costs to the program.

     •   For expenditures related to or benefiting numerous programs, allocate costs
         among the programs. (This opinion does not address any specific allocation
         calculation or formula.)

     •   For all expenditures related to UI claims, allocate costs to Rapid Response
         based on the percentage of Rapid Response claims processed.

NMDOL used the third method to allocate its UI claims system reengineering costs
to the WIA Rapid Response program.

The OIG conducted a performance audit to determine if NMDOL improperly charged
UI benefits system reengineering costs to its WIA Rapid Response program.




24                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program

                                                                           Appendix B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if NMDOL improperly charged UI benefits
systems reengineering costs to its WIA Rapid Response program

Scope

We examined the UI claims system costs charged to the WIA funded Rapid
Response program during the period July 1, 2001, through January 2005, the month
when we conducted our examination on-site at NMDOL’s central offices in
Albuquerque, New Mexico. While we planned to use an ending cut-off period of
June 30, 2004, for the costs to be examined; the latest NMDOL compilation of costs
for the UI claims system occurred in February 2004. We also performed additional
analytical procedures through April 8, 2005.

We did not use sampling. Our audit was limited to an allegation that WIA Rapid
Response funds had been improperly used to help fund a UI system re-engineering
project. The individual accounting transactions and related evidence for UI claims
system costs that were charged to Rapid Response were examined.

We did not necessarily determine the full extent of UI or other costs improperly
allocated to Rapid Response because NMDOL failed to implement needed controls
in their accounting system to segregate costs for the UI claims system re-
engineering project and to maintain the integrity of its cost accounting process.

Methodology

We examined the NMDOL process for allocating UI systems reengineering costs, UI
staff compensation and other UI program costs to the WIA Rapid Response
program. Specifically, we:

   •    Interviewed ETA staff.
   •    Reviewed NMDOL’s legal opinion.
   •    Reviewed ETA’s response to our questions regarding applicable criteria.
   •    Interviewed NMDOL staff.
   •    Reviewed development plans for new UI system Rapid Response
        component.
   •    Analyzed charges to Rapid Response for UI systems costs.
   •    Reviewed ETA’s report on their review of NMDOL’s UI reengineering project.
   •    Reviewed an Agreed Upon Procedures report regarding the UI claims system
        reengineering project, prepared by Henderson, Black and Company, Certified
        Public Accountants and Management Consultants, August 5, 2004.


U.S. Department of Labor—Office of Inspector General                                 25
Report Number: 06-05-005-03-390
                                              The NMDOL Improperly Charged UI Program
                                                Costs to Its WIA Rapid Response Program

     •   Reviewed OIG’s 1999 audit working papers related to Audit of New Mexico
         Balance of State JTPA program.
     •   Reviewed NMDOL’s last financial statement audit (single audit) which
         contained a qualified opinion on the ETA-funded WIA grant program.

We did not assess or rely on NMDOL’s system of internal controls for allocating its
costs to USDOL funded programs in defining the scope of our audit or determining
the extent of our examination. Rather, we conducted substantive tests of the UI
costs that allegedly had been misapplied to the WIA Rapid Response program.
Therefore, we do not provide any assurance over NMDOL’s system of internal
controls.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards.

Criteria

We used the following criteria to perform this audit:

     •   Workforce Investment Act of 1998

     •   Final WIA Rules dated August 11, 2000, published in 20 CFR, Subpart(s)
         665.300, 665.310, 665.320, 667.200

     •   OMB Circular A-87, Federal Cost Principles for State and Local Grantees




26                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program

                                                                           Appendix C

ACRONYMS AND ABBREVIATIONS


ETA                  Employment And Training Administration

NMDOL                New Mexico Department of Labor

OIG                  Office of Inspector General

RRA                  Rapid Response Activity

TCS                  TATA Consultancy Services

TRA                  Trade Readjustment Act

UI                   Unemployment Insurance

USDOL                United States Department of Labor

WIA                  Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                 27
Report Number: 06-05-005-03-390
                            The NMDOL Improperly Charged UI Program
                              Costs to Its WIA Rapid Response Program




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                 U.S. Department of Labor—Office of Inspector General
                                        Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program

                                      Appendix D

Agency Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                 29
Report Number: 06-05-005-03-390
              The NMDOL Improperly Charged UI Program
                Costs to Its WIA Rapid Response Program




30   U.S. Department of Labor—Office of Inspector General
                          Report Number: 06-05-005-03-390
                                               The NMDOL Improperly Charged UI Program
                                                 Costs to Its WIA Rapid Response Program




U.S. Department of Labor—Office of Inspector General                                 31
Report Number: 06-05-005-03-390
